           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION



     DISCLOSURE STATEMENT FOR
      MAXIMUS’ HUMAN SERVICES
       OPERATIONS SEGMENT
     EFFECTIVE OCTOBER 1, 2002


   February 2006   A-15-06-26026




 AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                       SOCIAL SECURITY
MEMORANDUM
Date:   February 17, 2006                                               Refer To:

To:     Dale Sopper
        Deputy Commissioner
         for Finance, Assessment and Management

From:   Inspector General

Subject: Disclosure Statement for MAXIMUS’ Human Services Operations Segment Effective
        October 1, 2002 (A-15-06-26026)


        OBJECTIVE

        The objective of our review was to ensure the adequacy of the disclosure statement
        submitted by MAXIMUS for its Human Services Operations segment, effective
        October 1, 2002. Specifically, we determined whether the disclosure statement:

              •   was current, accurate, complete, and;
              •   adequately described the contractor’s cost accounting practices.

        In addition, we determined if the disclosed practices complied with Federal Cost
        Accounting Standards.

        BACKGROUND

        Certain contractors and subcontractors are required by Federal regulations to comply
        with Cost Accounting Standards (CAS), once they are awarded a CAS covered contract
        that exceeds $50 million.1 These standards provide instructions for contractors and
        subcontractors on the appropriate methodology to use when accounting for costs
        incurred. The Code of Federal Regulations (C.F.R.) states that, “The cognizant auditor
        is responsible for conducting reviews of Disclosure Statements for adequacy and
        compliance.”2 Since the Social Security Administration (SSA) has the largest dollar
        amount of cost-type contracts, including options, with MAXIMUS’ Human Services
        Operations segment, SSA is the cognizant agency for that segment.




        1
            48 C.F.R. § 9903.201-2.
        2
            48 C.F.R. § 30.202-6(c).
Page 2 – Dale Sopper

MAXIMUS submitted to SSA a disclosure statement, with a cover letter dated
March 17, 2005, for its Human Services Operations segment. This disclosure
statement had an effective date backdated to October 1, 2003. It reflected changes in
the disclosure statement requirements and changes to the corporate structure at
MAXIMUS. MAXIMUS’ prior disclosure statement was dated December 7, 1994.

During the course of our review, minor changes, such as the effective date, were made
to the Human Services Operations segment disclosure statement submitted
March 17, 2005. MAXIMUS provided an updated disclosure statement on
September 28, 2005, which will also be provided to SSA. The effective date of this
disclosure statement was changed to October 1, 2002.

RESULTS OF REVIEW
Based on our review, we determined the revised disclosure statement, dated
September 28, 2005, was current, accurate, and complete and adequately described
the contractor’s cost accounting practices. In addition, we determined the disclosed
practices complied with Federal Cost Accounting Standards.

However, our review of the disclosure statement submitted March 17, 2005, identified
the following conditions:

   •   MAXIMUS did not submit the disclosure statement in a timely manner;
   •   MAXIMUS failed to discuss changes in accounting practices in the disclosure
       statement; and
   •   MAXIMUS failed to submit a cost impact statement for organizational and
       accounting changes.

MAXIMUS submitted the disclosure statement, dated March 17, 2005, approximately
3 years late. There were changes in the MAXIMUS organization including the addition
of new segments in 2002, and further changes in 2003 where segments were split.
Additionally, divisions were added and taken away from various segments. These
organizational changes have a potential for impacting the cost pools and bases. The
disclosure statement omitted information concerning MAXIMUS’ organizational
changes, which created new segments and altered the cost pools and cost bases used
in determining indirect costs charged to Federal contracts. MAXIMUS is required to
submit a description of changes in accounting practices prior to implementation of those
changes, in accordance with 48 C.F.R. § 30.603-2(c).

MAXIMUS also failed to submit cost impact statements or discuss changes in
accounting practices in the March 17, 2005 disclosure statement. MAXIMUS is required
to submit a cost impact statement as stated in 48 C.F.R. § 30.603-2(c). As prescribed
by 48 C.F.R. § 30.202-7, the auditor shall conduct a review of the Disclosure Statement
to ascertain whether it is current, accurate, and complete. According to 48 C.F.R. §
52.230-3(a)(3)(i), Disclosure and Consistency of Cost Accounting Practices, the
contractor should follow “…consistently the Contractor's cost accounting practices.” For
Page 3 – Dale Sopper

the reasons presented above, we determined the updated disclosure statement dated
March 17, 2005 to be inadequate. We brought this to the attention of MAXIMUS
personnel and they submitted a revised disclosure statement, on September 28, 2005.
In addition, MAXIMUS also submitted a cost impact statement on October 19, 2005.

CONCLUSION AND RECOMMENDATIONS
Our review found the revised disclosure statement submitted September 28, 2005,
adequately described the contractor’s cost accounting practices. The practices, as
described in the revised disclosure statement, comply with applicable CAS.

MAXIMUS is required to submit revised disclosure statements whenever there are
changes in the disclosure statement requirements and changes to the corporate
structure. For future submissions, we recommend SSA:

   1. Require MAXIMUS to submit timely disclosure statements, which provide
      information on future changes brought about by adding or changing segments
      and divisions and their impact on cost pools and cost bases.

   2. Require MAXIMUS to submit cost impact statements for any future changes,
      which should contain an assessment of the impact on costs to the Federal
      Government, i.e., whether these changes increase the cost to Federal contracts
      and, if so, by how much.

AGENCY COMMENTS
SSA agreed with our recommendations. See Appendix B for the full text of the
Agency’s comments.




                                               S
                                               Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Scope and Methodology

APPENDIX B – Agency Comments

APPENDIX C – OIG Contacts and Staff Acknowledgments
                                                                    Appendix A

Scope and Methodology
Our review was limited to the disclosure statement for MAXIMUS’ Human Services
Operations segment, effective October 1, 2002. We obtained an understanding of the
Cost Accounting Standards as they relate to the adequacy and compliance of the
disclosure statement. Our review identified the accounting practices with the greatest
impact on Government contracts and tested the interrelationships between data within
the disclosure statement. We reviewed the disclosure statement to determine whether
it adequately described MAXIMUS’ cost accounting practices and whether the disclosed
practices complied with the appropriate rules, regulations and standards.

The disclosure statement for the Human Services Operations segment makes reference
to a separate disclosure statement for the Home Office. We reviewed the disclosure
statement for the Home Office effective October 1, 2003, to the extent that it applied
directly to the Human Services Operations segment disclosure statement.

We reviewed the statement for adequacy and compliance to verify that the contractor’s
actual accounting practices were the same as those in the disclosure statement.

We conducted our review in accordance with generally accepted government auditing
standards. Our fieldwork was performed in Baltimore, Maryland and Reston, Virginia
between June and September 2005.
                  Appendix B

Agency Comments
                                         SOCIAL SECURITY

MEMORANDUM                                                                       0602-0003889


Date:      February 6, 2006                                                      Refer To: S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      Dale W. Sopper /s/
           Deputy Commissioner
            For Finance, Assessment and Management

Subject:   Office of the Inspector General Draft Report, “Disclosure Statement for MAXIMUS’ Human
           Services Operations Segment Effective October 1, 2002 (A-15-06-26026)—INFORMATION


           We appreciate OIG’s efforts in conducting this review. Our comments on the draft report content
           and recommendations are attached.

           Let me know if we can be of further assistance. Staff inquiries may be directed to Candace
           Skurnik, Director, Audit Management and Liaison Staff on extension 54636.

           Attachment:
           SSA Response




                                                         B-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT REPORT,
“DISCLOSURE STATEMENT FOR MAXIMUS’ HUMAN SERVICES OPERATION
SEGMENT EFFECTIVE OCTOBER 1, 2002” (A-15-06-26026)

Thank you for the opportunity to provide comments on this OIG draft report. The Social
Security Administration (SSA) appreciates the work performed by OIG with respect to the audit
of MAXIMUS’ most recent disclosure statement. This OIG audit was required within the
context of the SSA Office of Acquisition and Grant’s (OAG) responsibilities as cognizant
contract administration office. These responsibilities include the administration of Cost
Accounting Standards (CAS) and the ongoing review and approval of MAXIMUS’ CAS
Disclosure Statement.

We have the following comments on the OIG draft report.

Recommendation 1

Require MAXIMUS to submit timely disclosure statements, which provide information on future
changes brought about by adding or changing segments and divisions and their impact on cost
pools and bases.

Comment

We agree. On January 27, 2006, we have sent the attached letter to the Chief Compliance and
Contracting Officer of MAXIMUS, with a reminder about the requirement to submit timely
disclosure statements. We emphasize in that letter that the following information must be
submitted with the disclosure statement: information regarding future changes that result from
adding or changing segments and divisions, and their subsequent impact on cost pools and
bases. We have requested that MAXIMUS reply to the letter, acknowledge the requirement, and
indicate their agreement to comply.

Recommendation 2

Require MAXIMUS to submit cost impact statements for any future changes, which should
contain an assessment of the impact on costs to the Federal Government, i.e., whether these
changes increase the cost to Federal contracts and, if so, by how much.

Comment

We agree. We have included this requirement in the aforementioned letter. We would like to
note that MAXIMUS recently indicated to OAG that the company is in the process of
undergoing another accounting system change that will likely require a new disclosure
statement. We followed up with MAXIMUS to determine the status of the new disclosure
statement in the January 27, 2006 letter.




                                              B-2
                                                                         Appendix C

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Victoria Vetter, Director, Financial Audit Division, (410) 966-9081

   Kristen Schnatterly, Audit Manager, (410) 965-0433

Acknowledgments

In addition to those named above:

   Jackie Patel, Auditor-in-Charge

   Sigmund Wisowaty, Senior Auditor

   Mark Meehan, Senior Auditor

   Annette DeRito, Writer-Editor

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Specialist at (410) 965-3218. Refer to Common Identification
Number A-15-06-26026.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Resource Management (ORM). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                              Office of Resource Management
ORM supports OIG by providing information resource management and systems security. ORM
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, ORM is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
